Case: 18-11409

Document: 00515371590

Page: 1

Date Filed: 04/03/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

f

l

No. 18-11409

ELMO FORTENBERRY;
Plaintiff - Appellant
v.
BOARD OF PARDON AND PAROLE; PAROLE OFFICER JENNIFER S.
BROWN; DAVID GUTIERREZ; TEXAS DEPARTMENT OF CRIMINAL
JUSTICE; WILLIAM STEPHENS, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION;
TEXAS DEPARTMENT OF PUBLIC SAFETY; GREG ABBOTT,
GOVERNOR OF THE STATE OF TEXAS; LIEUTENANT GOVERNOR DAN
PATRICK; LYNNE SHARP,
Defendants - Appellees

Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING
Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:

■

V

h

Case: 18-11409

Document: 00515371590

Page: 2

Date Filed: 04/03/2020

IT IS ORDERED that the petition for rehearing is DENIED.
ENTERED FOR THE COURT:
/si Edith H. Jones
UNITED STATES CIRCUIT JUDGE

V

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit
FILED

r

February 5, 2020

No. 18-11409

Lyle W. Cayce
Clerk

ELMO FORTENBERRY,
Plaintiff-Appellant
v.

BOARD OF PARDON AND PAROLE; PAROLE OFFICER JENNIFER S.
BROWN; DAVID GUTIERREZ; TEXAS DEPARTMENT OF CRIMINAL
JUSTICE; WILLIAM STEPHENS, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION;
TEXAS DEPARTMENT OF PUBLIC SAFETY; GREG ABBOTT, GOVERNOR
OF THE STATE OF TEXAS; LIEUTENANT GOVERNOR DAN PATRICK;
LYNNE SHARP,
Defendants-Appellees

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 7:15-CV-167

Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
flat* t-t-

PER CURIAM:* TA-> '.£/>vr

+it

Elmo Fortenberry, Texas prisoner # 1949652, moves for leave to proceed
in forma pauperis (IFP) on appeal from the dismissal of his 42 U.S.C. § 1983
suit. The district court denied Fortenberry leave to proceed IFP on appeal,
* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 18-11409
certifying that this appeal was not taken in good faith.

See 28U.S.C.

§ 1915(a)(3). By moving to proceed IFP here, Fortenberry is challenging the
district court’s certification decision. See Baugh v. Taylor, 117 F.3d 197, 202
(5th Cir. 1997).

Fortenberry also moves for default judgment and the

appointment of counsel.
Our inquiry into an appellant’s good faith “is limited to whether the
appeal involves legal points arguable on their merits (and therefore not
r-.

frivolous).” Howard v. King, 707 F.2d 215, 220 (5th Cir. 1983) (internal
rk -i £ASc
~r$ -ftvtec
<? &tr
u e PH f
quotation mark's and citation omitted).
Fortenberry’s contention that
immunity is not a defense against violations of law or constitutional rights does

^

not establish a nonfrivolous issue for appeal with respect to the district court’s
decisions on Eleventh Amendment immunity, absolute immunity, and
qualified immunity. See Toney v. Owens, 779 F.3d 330, 336 (5th Cir. 2015) J'A C iAS
(qualified immunity); Moore v. La. Bd. of Elementary and Secondary Educ.,
743 F.3d 959, 963 (5th Cir. 2014) (Eleventh Amendment immunity); Hulsey u.
Owens, 63 F.3ji 354, 356-57 (5th Cir. 1995),(absolute immunity). His reliance
on Monell v. Dep’t of Social Servs., 436 U.S. 658 (1978), is unavailing, as Monell
concerns local government units and does not set forth an exception to a state
agency’s Eleventh Amendment immunity. See Monell, 436 U.S. at 690 & n.54;
Johnson v. Kegans, 870 F.2d 992, 998 n.5 (5th Cir. 1989).
Fortenberry also has not demonstrated a nonfrivolous issue regarding
the district court’s determinations that respondeat superior liability is not a
basis for relief under § 1983, see Brown v. Taylor, .911 F.3d 235, 245 (5th Cir.
2018), and that his claim that he was unlawfully required to register as a sex
offender was time barred because the claim accrued in 2010 when Fortenberry
knew or had reason to know of the alleged unlawful registration, see Moon u.

/

2

No. 18-11409
freon/ l/

City of El Paso, 906 F.3d 352, 358 (5th Cir. 2018), cert, denied, 139 S. Ct. 2616
(2019).
Lastly, even when the litigant is pro se, “conclusory allegations or legal
conclusions masquerading as factual conclusions will not suffice to state a
claim for relief’ under § 1983. Coleman v. Lincoln Par. Det. Ctr., 858 F.3d 307,
309 (5th Cir. 2017) (internal quotation marks and citation omitted).
Fortenberry does not raise a nonfrivolous issue regarding the district court’s
determination under § 1915(e)(2)(B)(ii) that his conclusory allegations were
insufficient to state a claim on which relief may be granted. See id.; Yohey v.
Collins, 985 F.2d 222, 225 (5th Cir. 1993). 7kA CPfe K&9
The instant appeal is without arguable merit and is dismissed as
frivolous. See Baugh, 117 F.3d at 202 n.24; Howard v. King, 707 F.2d 215, 220
(5th Cir. 1983); 5TH ClR. R. 42.2. The district court’s dismissal of Fortenberry’s
§ 1983 suit and our dismissal of this appeal as frivolous both count as strikes
for purposes of § 1915(g). See Coleman v. Tollefson, 135 S. Ct. 1759, 1763-64
(2015); Adepegba v. Hammons, 103 F.3d 383, 388 (5th Cir. 1996). Fortenberry
is warned that if he accumulates three strikes, he will not be able to proceed
IFP in any civil action or appeal filed while he is incarcerated or detained in
any facility unless he is under imminent danger of serious physical injury.’ See
§ 1915(g).
MOTIONS FOR LEAVE TO PROCEED IFP, DEFAULT JUDGMENT,
AND APPOINTMENT OF COUNSEL DENIED; APPEAL DISMISSED;
SANCTION WARNING ISSUED.

ft. 1.
3

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
ELMO FORTENBERRY,
TDCJ No. 1949652,

§
§
§
§
§
§
§

Plaintiff,
v.

BOARD OF PARDONS AND PAROLE,
et al.,
Defendants.

Civil Action No. 7:15-cv-167-0

§

•a *

§ .
§
§

}... -

JUDGMENT
This action came on for consideration by the Court, and the issues having been duly
considered and decisions duly rendered,
It is ORDERED, AD JUDGED,, and DECREED that Plaintiffs claims against the Texas
Board of Pardons and Paroles, the Texas Department of Criminal Justice., and the Texas Department

v

of Public Safety are DISMISSED with prejudice pursuant to 28 U.S.C. § 19l 5(e)(2)(B)(iii). See
tsATfi CcC A
Order, ECF No. 82.
VK^iT'
OKMAqci
Sc
Yh* $-t v
*
Plaintiffs claims against Defendants William Stephens, Greg Abbott, Dan Patrick, David
Gutierrez, Lynne Sharp, and Jennifer Brown are DISMISSED with prejudice pursuant to 28 U.S.C.
§ 1915(e)(2)(B)(ii) for failure to state a claim upon which relief may be granted. See Orders, ECF
Nos. 45, 83.

/? (L tie t'

Plaintiffs claim of unlawful sex offender registration is DISMISSED with prejudice
pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) as frivolous.
SIGNED this 9th day of October, 2018.

£ed O’Connor
UNITED STATES DISTRICT JUDGE

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
ELMO FORTENBERRY,
TDCJ No. 1949652,
Plaintiff,
v.

BOARD OF PARDONS AND PAROLE
et al.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§

Civil Action No. 7:15-cv-167-0

ORDER
All Defendants named in this action have been dismissed as parties to this lawsuit. See
Orders, ECF Nos. 45, 82, 83. Upon further review of the record in this case, the Court finds and
orders as follows:
In 1991, Plaintiff was charged with the offense of burglary of a habitation with attempted
sexual assault in Potter County, Texas. See Plaintiffs Answer to the Court’s Question No. 1, ECF
No. 41 at 1. Plaintiff entered into a plea agreement in which he pleaded guilty to burglary of a
habitation and the additional charge of attempted sexual assault was dismissed. Id. Plaintiff states
that, in 2000, the “prosecutor changed [his] conviction to burglary of a habitation and sexual
assault.” Id. at Answer to Question No. 2, ECF No. 41 at 2. Then, Plaintiff states, in 2004, the
original trial court judge, Patrick Pirtle, listened to Plaintiffs story, reviewed the court records, and
“made [the] prosecutor correct his mistake.” Id. at Answer to Question No. 3, ECF No. 41 at 3.
JP]aintiff claims that, despite the correction to his criminal records, he is required to register as a sex
. offender. See Plaintiffs Answer to the Court’s Supplemental Question No. 3, ECF No. 44 at 3.
Plaintiff argues that the requirement that he register as a sex offender is unlawful because he has

never been convicted of a sex offense. Id. at Answer to Supplemental Question No. 4, ECF No. 44
at 4.
In 2008, Troy Fox, Board Administrator for the Texas Board of Pardons and Paroles, sent
a letter to Plaintiff telling him that his conviction record originally showed that he was convicted of
Burglary of a Habitation with Intent to Commit Sexual Assault. Fox informed Plaintiff that the
records later reflected that Plaintiff was convicted only of Burglary of a Habitation, and that when
Plaintiff was “next released to supervision,” he should not have to register as a sex offender. See
ECF No. 5 at 5. But Plaintiff states that he was required to register as a sex offender six to eight
months after he was released from prison in 2010. See Plaintiffs Answer to the Court’s Question
No. 11, ECF No. 41 at 11. The Texas Sex Offender Registry lists Plaintiffs registration date as
“8/10/2010.” https://records.txdps.state.tx.us/SexOffenderRegistry/Search/Rapsheet?Sid=03055130
(last visited October 5, 2018).
“[WJhere it is clear from the face of a complaint filed in forma pauperis that the claims
asserted are barred by the applicable statute of limitations, those claims are properly dismissed [as
frivolous].” Gartrell v. Gaylor, 981 F.2d 254, 256 (5th Cir. 1993); accord Harris v. Hegmann, 198
F.3d 153, 156 (5th Cir. 1999); Gonzalez v. Wyatt, 157 F.3d 1016, 1019-20 (5th Cir. 1998); Slackv.
Carpenter, 7 F.3d 418, 419 (5th Cir. 1993). “Under federal law, a cause of action accrues when the
plaintiff knows or has reason to know of the injury which is the basis of the action.” Slack, 7 F.3d
at 419 (quoting Gartrell, 981 F.2d at 257). A district court may dismiss a § 1983 complaint sua
sponte under 28 U.S.C. § 1915(e)(2)(B) when the complaint demonstrates that the claims asserted
are time-barred. Gonzalez, 157 F.3d at 1019-20.

-2-

ft.7,

In 2008, Plaintiff was notified by Troy Fox, Parole Board Administrator, that he should not
be required to register as a sex offender upon his release from prison. Plaintiff states that he was
required to register six to eight months after he was released from prison in 2010. Plaintiff s sex
offender registration corroborates his statement as it shows his registration date to be August 10,
2010. Therefore, Plaintiff was aware of the alleged unlawful registration requirement, at the latest,
in August of 2010. Plaintiff filed the instant lawsuit on November 25, 2015, over five years after
his cause of action accrued. In light of the two-year statute of limitations, Plaintiffs claim that he
is unlawfully required to register as a sex offender is time-barred. See Ivie v. Abbott, 578 F. App’x
402,403 (5th Cir. 2014) (affirming dismissal as time-barred, plaintiffs claim that he was denied due
process when the trial court failed to admonish him, prior to his guilty plea, that he would be
required to register as a sex offender); Comeaux v. Texas Bd. of Pardons & Paroles, No. CV
H-14-2293, 2014 WL 11600892, at *1 (S.D. Tex. Dec. 4, 2014) (finding time-barred, plaintiffs
claim that his sex offender registration requirement was an unlawful ex postfacto violation); Owens
v. Abbott, No. 3-12-cv-1576-L, 2012 WL 12893393, at *2 (N.D. Tex. June 13, 2012), rec. adopted,
No. 3:12-cv-1576-L, 2012 WL 12893043 (N.D. Tex. June 29, 2012) (finding that plaintiff s claim
of unlawful sex offender registration accrued on the date he was ordered to register, which was nine
years prior to filing suit, and was therefore time-barred); Tippettv. Foster, No. 3:10-cv-0744-B, 2010
WL 2891119, at *2 (N.D. Tex. June 16, 2010), rec. adopted, No. 3:10-cv-0744-B, 2010 WL
2912248 (N.D. Tex. July 19, 2010) (dismissing plaintiffs claim that he was forced to register as a
sex offender without proper notice or other procedural safeguards as time-barred; cause of action
accrued on the date he was ordered to register).

-3-

ft

5

For the foregoing reasons, Plaintiffs claim that he is unlawfully required to register as a sex
offender is DISMISSED with prejudice pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) as frivolous.
SO ORDERED this 9th day of October, 2018.

1

£ed O’Connor
UNITED STATES DISTRICT JUDGE

1 Plaintiff claims that false charges, perjury, and fraud resulted in a conviction for assault on
a public servant in Midland County, Texas. See Amended Complaint, ECF No. 12 at 5; Plaintiff s
Answer to the Court’s Question No. 1, ECF No. 41 at 1. However, he states that the Midland
County case has nothing to do with the instant case. See Plaintiffs Answer to the Court’s Question
No. 1, ECF No. 41 at 1. Therefore, the Court will not construe his statement regarding the
conviction as a successive habeas petition. See Fortenberry v. Davis, No. 7:16-cv-344 (W.D. Tex.
June 8, 2017) (federal habeas challenge to 2014 Midland County conviction for assault on a public
servant dismissed as time-barred).
-4-

fl. p~

